                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington. D.C. 20230




March 24, 2014




                                                               c.:
MEMORANDUM FOR: 	 John H. Thompson
                              Director
                              U.S. Census   Bu~

FROM:                        Allen Crawley
                             Assistant Inspector General for Systems Acquisition
                               and IT Security

SUBJECT:                      Audit of Census Bureau's Continuous Monitoring Strategy
                               and Practices

As part of our fiscal year (FY) 2014 Federal Information Security Management Act of 2002
(FISMA) review, OIG is initiating an audit of the Census Bureau's continuous monitoring
strategy and practices. The audit objective is to determine whether the Census Bureau's
continuous monitoring strategy and practices, including ongoing security control assessments of
its critical information systems, provide adequate information for authorizing officials to make
proper risk-based decisions.

We plan to begin this work immediately. We will contact your audit liaison to establish an
entrance conference to discuss this audit. We will conduct our fieldwork at selected Census
Bureau and contractor sites. If you have any questions, please call me at (202) 482-1855 or Dr.
Ping Sun at (202) 482-6121.

cc: 	   Simon Szykman, Chief Information Officer
        Brian McGrath, Chief Information Officer, Census Bureau
        Rod Turk, Director, Office of Cyber Security, and Chief Information Security Officer
        Timothy Ruland, Chief Information Security Officer, Census Bureau
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
        Adam Miller, Audit Liaison, Census Bureau
